<html>
<title> - OPEN HEARING TO CONSIDER THE NOMINATION OF HON. MIKE POMPEO TO BE DIRECTOR OF THE CENTRAL INTELLIGENCE AGENCY</title>
<body><pre>[Senate Hearing 115-72]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 115-72

   OPEN HEARING TO CONSIDER THE NOMINATION OF HON. MIKE POMPEO TO BE 
              DIRECTOR OF THE CENTRAL INTELLIGENCE AGENCY

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       THURSDAY, JANUARY 12, 2017

                               __________

      Printed for the use of the Select Committee on Intelligence
      

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        
      

         Available via the World Wide Web: http://www.fdsys.gov
         
         
                                __________
                                    

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
24-744 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4c2b3c230c2f393f382429203c622f232162">[email&#160;protected]</a>          
         
        
         
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
                MARK R. WARNER, Virginia, Vice Chairman

JAMES E. RISCH, Idaho                DIANNE FEINSTEIN, California
MARCO RUBIO, Florida                 RON WYDEN, Oregon
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
JAMES LANKFORD, Oklahoma             JOE MANCHIN, West Virginia
TOM COTTON, Arkansas                 KAMALA HARRIS, California
JOHN CORNYN, Texas
                 MITCH McCONNELL, Kentucky, Ex Officio
                  CHUCK SCHUMER, New York, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                       Desiree Sayle, Chief Clerk
                                
                                
                                CONTENTS

                              ----------                              

                            JANUARY 12, 2017

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Warner, Hon. Mark R., Vice Chairman, a U.S. Senator from Virginia     2

                               WITNESSES

Roberts, Hon. Pat, U.S. Senator from Kansas......................     5
Dole, Hon. Bob, former U.S. Senator from Kansas..................     6
Pompeo, Hon. Mike, Nominated to be Director of the Central 
  Intelligence Agency............................................     7
    Prepared Statement...........................................    12

                         SUPPLEMENTAL MATERIAL

Questionnaire for Completion by Presidential Nominees............    52
Prehearing Questions and Responses...............................    67
Questions for the Record.........................................   128

 
                      OPEN HEARING TO CONSIDER THE
                     NOMINATION OF HON. MIKE POMPEO
                         TO BE DIRECTOR OF THE
                      CENTRAL INTELLIGENCE AGENCY

                              ----------                              


                       THURSDAY, JANUARY 12, 2017

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
Room SH-216, Hart Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Committee Members Present: Burr (presiding), Warner, Risch, 
Rubio, Collins, Blunt, Lankford, Cotton, Cornyn, Feinstein, 
Wyden, Heinrich, King, Manchin, and Harris.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I'd like to call this hearing to order.
    One procedural matter before we begin in earnest. We meet 
today prior to President-elect Trump's inauguration and 
therefore have not yet received Representative Pompeo's 
nomination to be Director of the Central Intelligence Agency. 
Procedurally, we cannot vote on and report out the nomination 
until it's received in the U.S. Senate.
    So today we'll have a hearing in expectation that that 
nomination will follow. Our goal in conducting this hearing is 
to enable the committee to begin consideration of 
Representative Pompeo's qualification, to allow for thoughtful 
deliberation of our members.
    Representative Pompeo has already provided substantive 
written responses to more than 125 questions presented by the 
committee and its members. Today, of course, members will be 
able to ask additional questions and hear from Representative 
Pompeo in open and closed session. It's my intention as soon as 
time allows to convene a meeting of the committee to vote on 
the nomination and to report it to the Senate floor for 
immediate floor vote.
    Now I'd like to welcome our witness today. Representative 
Mike Pompeo, President-elect Trump's nominee to be the next 
Director of the Central Intelligence Agency. Mike, 
congratulations on your nomination.
    I'd like to also welcome your wife--Susan, where are you?--
Susan and your son Nick. Would you two just stand up?
    [Susan and Nick Pompeo stand; applause.]
    Chairman Burr. I want to thank both of you for your support 
of your husband, your father, of this incredible opportunity 
and I think benefit to our country. I understand that both of 
you have been a constant source of constructive and critical 
counsel to Mike. You said once during a speech, Nick, you 
graded him with a C and, Susan, you graded him with an F for 
questioning during an open hearing of the events of Benghazi. 
For the record, that tough curve you have described in the 
Pompeo household has clearly served you well and likely 
prepared you for the challenges that lie ahead.
    You'll soon be asked to lead what, Mike, what I believe to 
be one of our Nation's most treasured assets during a period of 
profound change. The Central Intelligence Agency is one of the 
principal members of the United States intelligence community 
and is tasked with collecting foreign intelligence through 
human sources and by appropriate means. The CIA operates in the 
shadows. Its officers are often undercover and sometimes work 
in hostile and austere environments. It's not simply a job for 
many, but a lifestyle.
    The clandestine nature of the Agency's work, however, is 
both the greatest capability and most challenging liability 
since its activities are outside the public view. We address 
that liability by calling upon the President to nominate 
individuals with unwavering integrity, and the Senate approves 
only those who we're assured will lead this organization 
lawfully, ethically, and morally.
    Mike, I've reviewed the material provided by you prior to 
this confirmation hearing and have spoken with you personally. 
You enrolled in the United States Military Academy at West 
Point as a teenager. You graduated first in your class before 
serving as a cavalry officer. You went on to earn a law degree 
at Harvard and founded an aerospace company, where you served 
as CEO for more than a decade. You are in your third term 
representing the people from the Fourth District of Kansas and 
oversaw the intelligence community as a member of the House 
Permanent Select Committee on Intelligence.
    I believe your intellectual rigor, your honorable service 
and outstanding judgment make you a very natural fit to lead 
the CIA. I can assure you that this committee will continue to 
be faithful and follow its charter and conduct rigorous and 
real-time oversight over the CIA operations and their 
activities. We will ask difficult and probing questions of you, 
your staff, and we will expect honest, complete and timely 
response.
    The American people allow the CIA to operate in the shadows 
because they trust oversight. I take the responsibility very 
seriously. I look forward to supporting your nomination and 
ensuring its consideration without delay.
    I want to thank you again for being here, for your years of 
service to your country in many different capacities, and I 
look forward to your testimony today.
    I now would like to recognize the Vice Chairman, Senator 
Warner.

OPENING STATEMENT OF HON. MARK R. WARNER, VICE CHAIRMAN, A U.S. 
                     SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman. I also would like 
to welcome you and congratulate you, Congressman Pompeo. I want 
to also just note on a personal basis, it's great to have the 
former Vice Chair back here by my side, willing to kick and 
prod me if I get off script.
    Let me also echo what the Chairman says and offer 
congratulations on your impending nomination to serve as 
Director of the Central Intelligence Agency. I've enjoyed our 
recent meetings and thank you for your honest views.
    If confirmed, you will be sitting at a critical 
intersection between intelligence and policymaking. You and I 
agree that politics has no place in your new line of business. 
Your job will be to give the President the best professional 
judgment of America's intelligence experts at the CIA, even 
when it might be inconvenient or uncomfortable. As the motto 
you will see every morning in the lobby of the CIA headquarters 
reminds us, your job is to search out and follow the truth 
regardless of where it may lead. Many risk their lives and toil 
long hours in anonymity to get that critical piece of 
information that could mean the difference between literally 
life and death.
    Congressman Pompeo, I will need your public assurance that 
you will always seek to provide unbiased, unvarnished, and 
timely intelligence assessments to the President, to his 
Cabinet, his advisors, and to those of us in Congress. This 
intelligence must represent the best judgment of the CIA, 
whether or not that analysis is in agreement with the views of 
the President or anyone else who might receive them. I look 
forward to hearing from you on this topic.
    I've been concerned, as I've mentioned a number of times, 
over the course of the electoral campaign and even after it, 
that the CIA and the entire intelligence community has 
repeatedly and unfairly been subjected to criticism of its 
integrity. These comments have affected the morale of these 
dedicated men and women. This attitude will have a real impact 
on recruitment and retention of talented individuals willing to 
serve our country.
    Today again, I would like to hear your plan to reassure CIA 
employees that the countless hours they commit and the 
operations where they may be called upon to put their life on 
the line are not in vain, and that their sacrifices will not be 
disregarded in the White House or anywhere else in the next 
Administration.
    Intelligence, as we all know and have discussed as well, is 
a team sport and all members of that team must work together. 
The President-elect has announced a former member of this 
committee, Senator Dan Coats, a friend of many of ours, to 
become DNI. I will be paying particularly close attention to 
the cooperation between the CIA and ODNI as well as other 
intelligence agencies. I will ask that you commit yourself to 
this goal of cooperation and to provide assurance to this 
committee that you share that goal.
    The Agency that you have been nominated to head is facing a 
number of challenges brought on by the changing world which 
will require great leadership to drive organizational 
adaptation; among them, as the Chairman has mentioned: the 
increasing use and relevance of open source material and big 
data, coupled with the increasing amount of bad or false data 
in the world; the difficulty of using cover in a world where 
potential recruits have spent most of their lives online using 
social media; the challenge of maintaining analytical integrity 
after a reorganization that puts analysts and operators in the 
same rooms, working on the same programs; and the changing 
nature of a Millennial workforce increasingly diverse and born 
digitally native.
    Finally, as you know, Chairman Burr and I have committed to 
conduct a review of the intelligence supporting the 
intelligence community's assessment that Russia, at the 
direction----
    [Power failure; lights and public address system go out.]
    I said there would be some intervention.
    I want to continue on. Finally, as you know, Chairman Burr 
and I have committed to conduct a review of the intelligence 
supporting the intelligence community's assessment that Russia, 
at the direction of Vladimir Putin, sought to intervene in the 
2016 U.S. Presidential election in order to undermine public 
faith in our democratic process, to denigrate Secretary 
Clinton, and to help the election chances of Donald Trump.
    A couple of days ago, the Director of National 
Intelligence, the Director of the CIA, the Director of the NSA, 
and the Director of the FBI all testified that this was the 
most serious attempt to interfere in our political system that 
they had ever seen, with their combined hundreds of years of 
experience in law enforcement and intelligence. This was not 
business as usual with Russia.
    It is important that all Americans fully understand the 
extent and the vulnerability and the implications of Russia's 
intervention. The CIA's leadership needs to keep on top of 
these Russian efforts, and you follow the facts of this inquiry 
wherever it leads.
    Our charge on the committee is to review and validate the 
analysis on behalf of the American people, which I fully intend 
to achieve expeditiously. I ask that you commit to me and all 
members of the committee that you will fully cooperate with 
this review and that you will provide the information we 
require to conduct it.
    Again, thank you for being here. I look forward to the 
discussion.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Vice Chairman.
    The Senate Building Supervisor has been notified of our 
power surge here. In an effort to allow Senator Collins to 
fully work on her critical infrastructure----
    [Laughter.]
    Legislation, I'm going to ask that the committee recess 
temporarily until we get the lighting in the room back. So with 
that, the committee stands in recess until the call of the 
Chair.
    [Recess from 10:18 a.m. to 10:34 a.m.]
    I'd like to call the hearing back to order. I think since 
we've recessed our microphones have gone bad.
    Pat, if you and Senator Dole would follow this 
announcement. This is to announce that we're going to move the 
hearing to Dirksen 106, the first floor on the southeast 
corner. We'll recess for the relocation and call this hearing 
to order and begin with our introductions.
    [Whereupon, at 10:35 a.m., the hearing was recessed, then 
reconvened at 10:43 a.m. in Room SD-106, Dirksen Senate Office 
Building.]
    I call this session to order.
    In light of the circumstances, we don't have an answer to 
the problem that we have, but we have ruled out the Vice 
Chairman's comments and we've ruled out there's a conspiracy on 
the part of Senator Collins to highlight critical 
infrastructure in the cyber world.
    I'd like to thank the Vice Chairman for his opening words, 
and at this time I'm going to shorten my introduction to a very 
limited thing. We are honored to have two Kansans here: the 
current Senator, Pat Roberts, and former Senator and Leader Bob 
Dole. I would recognize Senator Roberts for the first 
introduction of Representative Pompeo.

    STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM KANSAS

    Senator Roberts. Well, thank you, Mr. Chairman, Mr. Vice 
Chairman, and members of the committee. As one of this 
committee's former chairmen, I fully appreciate the awesome 
responsibility that comes with sitting on this dais. Not only 
are you charged with authorizing the intelligence activities of 
the United States; perhaps more importantly, you represent the 
collective conscience of the American people as you oversee and 
scrutinize these activities.
    As you know well, service on the Intelligence Committee 
takes and must take place largely behind closed doors and 
without fanfare. It is work that keeps you up at night, but it 
is work that needs to be done to ensure that our intelligence 
professionals have the guidance and the resources that they 
need.
    Today, however, you meet in open session to consider the 
nomination of my good friend and my Kansas colleague, 
Congressman Mike Pompeo, to be the next Director of the Central 
Intelligence Agency. My esteemed friend Senator Bob Dole, my 
colleague and Kansas' favorite son, and I appreciate the 
opportunity to share briefly with you Mike's background and his 
achievements.
    Ultimately, I believe Mike has the experience, the 
knowledge, the judgment, and the skills necessary to lead the 
Central Intelligence Agency. Mike is Army-strong. That comes 
from a Marine. He graduated at the top of his class in West 
Point and then served as a cavalry officer, patrolling the Iron 
Curtain before the fall of the Berlin Wall. He later joined the 
2nd Squadron, 7th Cavalry, in the 4th Infantry Division.
    After completing his military service, Mike attended 
Harvard Law School, where he was an editor of the Harvard Law 
Review. Because he is an attorney, Mike understands the law. He 
will respect the limitations that we have placed upon our 
intelligence services and he will preserve our constitutional 
values.
    After practicing law, Mike returned to his mother's roots 
in south-central Kansas, running several very successful 
businesses in Wichita before making the decision to run for 
Congress back in 2010. Mike came to Washington with a strong 
desire to serve the people of the Fourth District and also 
ready for a challenge.
    He sought a seat on the House Intelligence Committee at a 
time when intelligence-gathering methods were under fire. As an 
experienced legislator, Mike Pompeo understands and respects 
the role of Congress and the need for vigorous oversight. I 
believe he will provide the Intelligence Committees with candid 
and honest assessments and provide the information the 
committee needs which is necessary to fulfil its oversight 
responsibilities.
    I trust that he will also demand that of everyone who 
serves in the CIA. In doing so, I know and he knows the 
difference between intelligence reporting and an intelligence 
product with input from all in the U.S. intelligence community, 
thus making sure our intel community does not become mired in 
assessment failure.
    Mr. Chairman, there are few positions in government with 
greater importance than that of the Director of the Central 
Intelligence Agency. At a time when democracy and freedom are 
under assault by radical elements fueled by hatred, our 
intelligence-gathering services must have--must have--a strong 
leader who will guide their mission and ensure the safety of 
the American people and not be swayed by any political 
interference.
    Those who serve in or in support of the clandestine service 
deserve our gratitude and our highest respect. The best way I 
know how to demonstrate that respect is to give them a leader 
that will have their backs and at the same time demand 
excellence of each and every one of them. Members of the 
committee, Mike Pompeo will be that kind of leader.
    I urge you to support this nomination. It is now a 
privilege to introduce to the committee someone that needs no 
introduction, Senator Bob Dole, with more insight with regards 
to Mike Pompeo's leadership that has benefited all of us in 
Kansas and in our Nation.
    Bob.
    Chairman Burr. Senator Dole, the floor is yours.

  STATEMENT OF HON. BOB DOLE, FORMER U.S. SENATOR FROM KANSAS

    Mr. Dole. My eyesight is not too good, so I thought it was 
perfect in the other room.
    [Laughter.]
    But I'm happy to be here, of course. Mike and Susan and 
your son: it's a great honor for me, and it's an honor just to 
come back to the Senate. I don't get up here very often. I know 
members on both sides of the aisle understand what a privilege 
it is to serve.
    I see my fraternity brother chairman here, and my fellow 
Kansan, Ron Wyden from Wichita, and others that I know very 
well. I didn't see--oh, I did see Susan. She's here somewhere. 
Is Dianne Feinstein here?
    Senator Feinstein. Here.
    Mr. Dole. Where? Oh. Dianne and I used to work together. 
Some of it was good.
    [Laughter.]
    But anyway, I'll just take a minute because we've lost a 
few minutes making the transfer.
    But I always thought that we tested a member of Congress or 
a Senator by what they did at home and what kind of a record 
they compiled and what kind of constituent service they had and 
whether they really were into what they were elected to do. 
Mike has a great record in Kansas, whether it's with the 
aviation industry that he worked closely with and had 
legislation passed that created more opportunities for small 
plane manufacturing, which created jobs--we need jobs in 
Kansas. I'm certain we all do, in all of our states.
    He had extensive work with veterans, and I do a lot of work 
with veterans myself, as a volunteer. He's had over 600 cases 
where he's tried to be helpful and has been helpful to veterans 
and their families. To me that is the mark of a good person--a 
big heart, responsibility, because no one needs more attention 
these days than those who served our country, and Mike 
understands that.
    To think of all the people he's helped in our State, it's 
very important. He's also been active in biotech engineering, 
whatever that is. He got 101 Democrats to work with him. It was 
totally bipartisan. And it really doesn't deal with the CIA, 
but again it's an indication of how hard he worked as a 
Representative from the Fourth District of Kansas.
    I told Mike I'd come up and speak with him or against him, 
and he said: ``Let me call you back.'' So I'm very proud to be 
here, because I know this man and I know he'll do a great job. 
He understands there are no politics in the CIA. It's very, 
very difficult and responsible work.
    So thank you all for being here this morning. I may run 
again, so I'll probably be up here looking for bipartisan 
support. But have a good day, and you've got a good candidate 
here. Thank you.
    Chairman Burr. Senator Dole, thank you very much for your 
services to the country, your service to the Senate, and your 
service to those in Kansas.
    Senator Roberts, thank you for your past leadership on this 
committee and, more importantly, your current contribution to 
the United States Senate.
    With that, Mr. Pompeo, I would like to ask you to stand.
    [Mr. Pompeo stands.]
    Mike, if you would raise your right hand. Do you solemnly 
swear to give the committee the truth, the full truth, and 
nothing but the truth, so help you God?
    Representative Pompeo. I do, sir.
    Chairman Burr. Please be seated.
    Mike, before we look at your statement, I'll ask you to 
answer five standard questions the committee poses to each 
nominee who appears before us. They just require a simple yes 
or no answer for the record.

TESTIMONY OF HON. MIKE POMPEO, NOMINATED TO BE DIRECTOR OF THE 
                  CENTRAL INTELLIGENCE AGENCY

    Chairman Burr. Do you agree to appear before the committee 
here and at any other venues when invited?
    Representative Pompeo. Yes, sir.
    Chairman Burr. If confirmed, do you agree to send officials 
from your office to appear before the committee and designated 
staff when invited?
    Representative Pompeo. Yes, sir.
    Chairman Burr. Do you agree to provide documents or any 
other materials requested by the committee in order for the 
committee to carry out its oversight and legislative 
responsibilities?
    Representative Pompeo. Yes, sir.
    Chairman Burr. Will you both ensure that your office and 
your staff provides such materials to the committee when 
requested?
    Representative Pompeo. Yes, sir.
    Chairman Burr. Do you agree to inform and fully brief to 
the fullest extent possible all members of the committee on 
intelligence activities and covert action, rather than only the 
chair and the vice chair?
    Representative Pompeo. Yes, sir, subject to--subject to 
what the President directs, I do. I will always try and do 
that.
    Chairman Burr. Thank you very much. We'll now proceed to 
your opening statement. The floor is yours, Mike.
    Representative Pompeo. Thanks very much, Senator Burr, 
Senator Warner, members of the committee.
    Senator Dole, thank you for your kind words this morning. 
But more importantly, thank you for your service to our Nation 
and to Kansas, as a public servant here, as an elected 
official, and as a soldier in World War II. Kansans--and I 
think it's safe to say your former colleagues here in the 
Senate--know they've benefited from your wit, your patriotism, 
and your kindness. I sure know that I have. Thank you so much 
for agreeing to be here this morning.
    Senator Bob, thank you too for your warm introduction. I'm 
especially grateful for your guidance over the years, not 
simply because you're the dean of the Kansas Congressional 
delegation, but due to the insights that you've shared with me 
in your role as the former chairman of this committee.
    Semper fi, sir.
    Mr. Dole. I may have to leave early. I finally got a 
client.
    Representative Pompeo. That's something I completely 
understand. Thank you very much for being here, sir.
    Chairman Burr, Vice Chairman Warner: Thank you for the 
opportunity to be here today as the nominee for the next 
Director of the Central Intelligence Agency. I want to thank 
the staff of this committee, too, for their kindness and 
attention through the nomination process.
    I'd like to thank President-elect Trump for nominating me. 
It's an honor to be selected as the next steward of the world's 
foremost intelligence agency. I look forward to working with 
Senator Coats, nominee for the Director of National 
Intelligence, and supporting him in his critical role, should 
we both be confirmed.
    I also want to thank Director Brennan and Director Clapper 
for their many, many years of selfless service to our Nation. 
I'm grateful, of course, to the people of the Fourth District 
of Kansas, who have entrusted me for the past six years and 
change to represent them in the United States House of 
Representatives. It has been a true honor.
    Finally, I want to thank my patient and patriotic wife 
Susan and my son Nicholas, each of whom I love dearly. The two 
of you have been so selfless in allowing me to return to public 
service, first as a member of Congress and now, if confirmed, 
working with warriors to keep America safe. I cannot tell you 
how much it means to me to have you all here with us today.
    Having been a member of the House Permanent Select 
Committee on Intelligence, I understand full well that my job, 
if confirmed, will be to change roles from centrality of 
policymaking to information-providing. The Director must stay 
clearly on the side of collecting intelligence and providing 
objective analysis to policymakers, including to this 
committee.
    I spent the majority of my life outside of politics, first 
as an Army officer and then a litigator and then running two 
manufacturing businesses in Kansas. Returning to duty that 
requires hard work and unerring candor is something that is in 
my bones.
    Today I'd like to briefly sketch some of the challenges the 
IC faces in the United States, address trends in intelligence, 
and describe what I see as the Central Intelligence Agency's 
role in addressing each of those.
    This is the most complicated threat environment the United 
States has seen in recent memory. ISIL remains a resilient 
movement that still controls major urban centers of the Middle 
East. We must ensure that they and those they inspire cannot 
expand their reach or slaughter more innocent people.
    The conflict in Syria is one of the worst humanitarian 
catastrophes of the 21st century. It has led to the rise of 
extremism and sectarianism, as well as further created 
instability throughout the region and in Europe, and indeed all 
across the world.
    Iran, the world's largest state sponsor of terror, has 
become an even more emboldened and disruptive player in the 
Middle East.
    Russia has reasserted itself aggressively, invading and 
occupying Ukraine, threatening Europe, and doing nothing to aid 
in the destruction and defeat of ISIS.
    As China flexes its muscles and expands its military and 
economic reach, its activities in the South and East China Seas 
and in cyberspace are now pushing new boundaries and creating 
real tension.
    North Korea too has dangerously accelerated its nuclear and 
missile capabilities.
    We all rely on intelligence from around the globe to avoid 
strategic and tactical surprise. Intelligence helps make the 
other elements of national power effective, including economic 
and legal measures against weapons proliferators, terrorist 
financiers, and other criminals. Foreign governments and 
liaison services are vital partners in preventing attacks and 
providing crucial intelligence. It's important that we all 
thank and appreciate the foreign partners who stand with us in 
helping to ensure that we all have the intelligence we need to 
keep America safe.
    If confirmed, I intend to advocate for a strong and vibrant 
intelligence community and the CIA's centrality in that 
community. There are at least four long-term trends making the 
urgency of Central Intelligence paramount:
    First, the intelligence community finds itself a potential 
victim of longer-term negative budgetary trends, which can 
weaken the fabric of our intelligence community.
    Second, as with the proliferation of chemical and 
biological weapons and ballistic missile technology, countries 
such as North Korea have overcome low barriers to entry to 
engage in offensive cyber operations. The United States must 
continue to invest wisely to maintain a decisive advantage.
    Third, the effects of dislocation and poor governance 
present a critical challenge, but also new targets and 
opportunities for the CIA's collection and analysis.
    Finally, the insider threat problem has grown exponentially 
in the digital age. The greatest threats to America have always 
been the CIA's top priority. It will be the CIA's mission and 
my own if confirmed to ensure that the Agency remains the best 
in the world at its core mission, collecting what enemies do 
not want us to know. In short, the CIA must be the world's 
premier espionage organization.
    One emerging and increased focus is the cyber domain. 
Sophisticated adversaries like China and Russia, as well as 
less sophisticated adversaries like Iran and North Korea, 
terrorist groups, criminal organizations, and hackers are all 
taking advantage of this new borderless environment. The CIA 
must continue to be at the forefront of this issue.
    As the President-elect has made clear, one of my top 
priorities if confirmed is to assist in the defeat of ISIS. We 
must maintain an aggressive counterterrorism posture and also 
address manifestations of this great threat beyond ISIS and Al 
Qaida.
    With respect to Iran, we must be rigorously objective in 
assessing the progress made under the Joint Comprehensive Plan 
of Action. While I opposed the Iran deal as a member of 
Congress, if confirmed, my role will change. I will lead the 
Agency to pursue aggressive operations and ensure analysts have 
the time, political space, and resources to make objective and 
sound judgments.
    Similarly, it's a policy decision with respect to how we 
will deal with Russia, but it will be essential for the Agency 
to provide policymakers with accurate, timely, robust, and 
complete intelligence and clear-eyed analysis of Russian 
activities to the greatest extent feasible.
    As a member of the House Intelligence Committee, I fully 
appreciate the need for transparency and support from members 
of Congress. We owe it to our constituents to get to the bottom 
of intelligence failures. But we owe it to the brave Americans 
of the intelligence community not to shirk our responsibility 
when unauthorized disclosures to the media expose controversial 
intelligence activities or when Edward Snowden, from the 
comfort of his Moscow safe house, misleads the American people 
about our intelligence activities.
    On my first visit to CIA headquarters a few years ago, I 
visited an analytical targeting cell. Some of you have probably 
done this as well. I saw a woman who appeared as though she had 
not slept for weeks. She was poring over data on her computer 
screen. I introduced myself. I asked her what she was working 
on and she said she was just hours away from solving a riddle 
to locate a particularly bad character she had been pursuing 
for months.
    She had her mission. Its completion would make America 
safer. She was a true patriot. In the past few years, I have 
come to know there are countless men and women just like her in 
the Agency working to crush our adversaries.
    This past weekend I took a moment and visited Arlington 
National Cemetery. I've done this many times, but on this visit 
I paid special attention to the markers that commemorate CIA 
officers who have perished in ensuring our freedom. In so many 
places most Americans will never know, agents put themselves 
and their lives at risk. We know the sacrifices of the families 
of each of these CIA officers. From their role of performing 
intelligence, those families sacrifice greatly as well.
    As I walked among these heroes, I was reminded of the 
sacred trust that will be granted to me if I am confirmed. I 
will never fail it.
    I am honored to have been nominated to lead the finest 
intelligence agency the world has ever known, working to keep 
safe the people of the greatest Nation in the history of 
civilization. If confirmed, I will be sworn to defend the U.S. 
Constitution for the third time in my life: first as a soldier, 
then as a member of the House of Representatives, and now to 
work with the President and each of you to keep America safe.
    Thank you all for an opportunity to speak with you this 
morning. I look forward to your questions.
    [The prepared statement of Representative Pompeo follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Mr. Pompeo, thank you for your testimony 
this morning.
    For members, we will recognize based upon seniority for 
five minutes of questions. I would note for members, there is a 
closed session of this hearing that will start promptly at 1:00 
p.m. I would remind members that we're in open session and that 
the questions for Representative Pompeo today in this session 
should be limited to those that can be discussed and answered 
in open session. I trust that if you ask something that can't, 
the witness will make sure that he answers it when we get to 
closed session.
    That said, Mike, I'm certain that from your experience on 
HPSCI and specifically your involvement in the House Select 
Committee on Benghazi investigation you understand how valuable 
intelligence can be to oversight. If asked by the committee, 
will you provide the raw intelligence and sourcing behind 
Agency finished products and assessments if in fact this 
committee needs it to complete its job?
    Representative Pompeo. Senator, I have been on the other 
side of this and I know how central it is to make sure you have 
all that you need to perform your oversight function for 
intelligence collection activities and all that the Agency 
does. You have my commitment that I will always do everything I 
can to make sure I give you the information that you need, 
including an expanded set of information.
    I understand on a handful of issues you have reached 
agreement. I heard Director Clapper testify before you. I 
believe it was last week; it may have been the beginning of 
this week. I promise to honor the commitment that Director 
Clapper made to this committee.
    Chairman Burr. Thank you for that.
    There has been much discussion about the role of the 
Central Intelligence Agency and what it played in the detention 
and interrogation of terrorism suspects as part of the RDI 
program. These detention facilities operated by the CIA have 
long since been closed. President Obama officially ended the 
program seven years ago.
    I think the debate space on this subject has become 
confused and I'm certain that the law is now very, very clear. 
Do you agree that it would require a change in the law for the 
CIA or any government agency to lawfully employ any 
interrogation techniques beyond those defined in the Army Field 
Manual?
    Representative Pompeo. I do.
    Chairman Burr. You have been an outspoken critic in the 
past of the policy and activities of this Administration, when 
you were serving representing the people of the Fourth District 
of Kansas. As head of the CIA, you'll be in a position to speak 
truth to power and provide the President with your Agency's 
unbiased, unvarnished, and best assessment of threats facing 
our Nation, assessments that will inform his approach to those 
very policies and activities that you may have criticized in 
the past.
    Will you be able to set politics aside and provide the 
President with clear-eyed assessments free of political 
interference?
    Representative Pompeo. Senator, I appreciate the question. 
When you say that, I understand the question that you're 
asking. I spent my life telling the truth, sometimes in very, 
very difficult situations--as a lieutenant, as a member of 
Congress, in fact as a member of the oversight committee. 
Sometimes we get placed in difficult situations, talking to our 
constituents about things that matter an awful lot to the 
American national security. Sometimes we just can't reveal 
them.
    You have my commitment that every day I will not only speak 
truth to power, but I will demand that the men and women who I 
have come to know well over these past few years, who live 
their lives doing just that, will be willing, able, and follow 
my instructions to do that each and every day.
    Chairman Burr. Thank you for that.
    Vice Chairman.
    Senator Warner. Thank you, Mr. Chairman.
    Again, Congressman, it's great to see you. To ensure that I 
don't end up with a light outage again, I won't read you the 
second half of my statement. But I do want to get you on the 
record, Mike, on a couple of issues that we had discussed, 
particularly about this inquiry into Russian active measures.
    I wanted to also reiterate the Chairman's comments on the 
absolute necessity to make sure that you bring forward this 
analysis in an unvarnished way. I think you have made that 
clear to the Chairman. I know you have made it clear to me on a 
private basis. So let me go into some of these questions fairly 
quickly.
    Do you accept the conclusions of the IC regarding Russia's 
active measures?
    Representative Pompeo. Senator Warner, I do. I had my 
briefing. I attended the meeting at which the President-elect 
was briefed. Everything I have seen suggests to me that the 
report is an analytical product that is sound.
    Senator Warner. Do you pledge to cooperate with the SSCI's 
special inquiry and to provide, if possible, all necessary 
materials and access to personnel?
    Representative Pompeo. Senator Warner, I do. I think that's 
incredibly important.
    Senator Warner. Do you plan to continue your own 
investigation into ongoing Russian active measures and any 
attempts they or others may have to undermine the United 
States, our political system, or our position in the world?
    Representative Pompeo. Senator, I do. Indeed, I would 
expect that the President-elect would demand that of me. It is 
fully my intention. I should share, that's my view with respect 
to all the products that the Central Intelligence Agency 
produces. If we continue to develop intelligence that is worth 
our salt we will continue to gain insights that are valuable to 
policymakers, to the President-elect, and you. I will continue 
to pursue foreign intelligence collection with vigor no matter 
where the facts lead.
    Senator Warner. Congressman, I have been critical of the 
tenor of some of the President-elect's comments about the 
workforce and the professionalism of the IC. In your opening 
statement you were very eloquent about the woman who had been 
without sleep for some time. In light of some of those 
comments, I have concerns about the morale throughout the IC, 
but particularly the CIA at this point.
    What plan do you have to go in and reassure people who work 
at the CIA and how we make sure, in a world where it's 
increasingly challenging to get people to step up and serve, 
both in terms of recruitment and retention, that you can 
reaffirm that you have the CIA employees' backs?
    Representative Pompeo. Senator, let me begin by saying I am 
confident that the Central Intelligence Agency will play a role 
for this Administration, as for every previous Administration, 
providing powerful intelligence that shapes policy and 
decision-making inside this Administration. I am confident that 
President-elect Trump will not only accept that, but demand it, 
from the men and women, not only of the CIA, but throughout all 
the 17 intelligence communities.
    With respect to me personally, I have come to understand 
the value of the Central Intelligence Agency. I have seen the 
morale through tough times where they have been challenged 
before and I've watched them walk through fire to make sure 
that they did their jobs in a professional way and that they 
always were aimed at getting the truth in depth, in a robust 
way, to policymakers. I have every confidence that not only 
will I demand that, but that they will continue to do that 
under my leadership if I am confirmed.
    Senator Warner. It's going to be an ongoing challenge. If 
confirmed, obviously I wish you the best. It's critically 
important. I see many of the CIA employees. I have the 
opportunity to represent them. They live in the Commonwealth of 
Virginia. They work in this region. And it's been a challenging 
time for them.
    I also want to get to, in light of some of the comments 
during the campaign the President-elect made, I think a subset 
of this issue as well is making sure going forward that the CIA 
represents the diversity of the world in terms of Muslim-
Americans being engaged. How do we reassure them, in light of 
some of the comments that have been made?
    Also, I concur with you that the challenge from ISIL is an 
enormous one. How do we make sure--how do we go forward to make 
sure that our Muslim allies in our fight against ISIL, that 
they're going to continue to have a strong partner in the 
United States and not one that is going to in any way 
discriminate based upon faith?
    Representative Pompeo. Senator, it's absolutely imperative. 
We have a workforce out at the Agency that's incredibly 
diverse. As you all well know, to achieve their mission we have 
to have folks from a broad background set, as well as language 
skills that represent all parts of the world, so that we can 
perform our intelligence operations properly.
    And we have partners in a Muslim world that provide us 
intelligence and who we share with in ways that are incredibly 
important to keeping America safe. I'm counting on, and I know 
you are as well, that these liaison partnerships will continue 
to be additive to American national security. You have my 
commitment that our workforce will continue to be diverse. I 
hope we can even expand that further, so that we can perform 
our incredibly important intelligence collection operations 
around the world.
    Senator Warner. Thank you, Mr. Chairman.
    Chairman Burr. Senator Risch.
    Senator Risch. Mr. Chairman, I've spent a considerable 
amount of time with Mike over the years and recently, and we're 
on a short string here. I'm going to reserve my questions until 
we get to the closed hearing. Thank you, Mr. Chairman.
    Chairman Burr. Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    I just want to begin by saying I really appreciate the 
private meeting we had an opportunity to have. For me it was a 
clarification. I do appreciate your apology. I take it with the 
sincerity with which you gave it.
    I want to ask one follow-up question to what the Chairman 
asked, and that's dealing with those enhanced interrogation 
techniques. That is that, if you were ordered by the President 
to restart the CIA's use of enhanced interrogation techniques 
that fall outside of the Army Field Manual, would you comply?
    Representative Pompeo. Senator, absolutely not. Moreover, I 
can't imagine that I would be asked that by the President-elect 
or then-President. I voted for the change to put the Army Field 
Manual in place as a member of Congress. I understand that law 
very, very clearly and am also deeply aware that any changes to 
that will come through Congress and the President.
    Senator Feinstein. And regular order?
    Representative Pompeo. And regular order, yes, ma'am, 
absolutely.
    With respect to outlines of what's in the Army Field 
Manual, there's no doubt in my mind about the limitations in 
place, not only on the DOD, but on the Central Intelligence 
Agency. I'll always comply with the law.
    Senator Feinstein. Another question: How will you handle 
the President-elect's refutation of the intelligence 
community's high assessment that Russian intelligence units, 
namely the GRU and the FSB, did in fact hack and spear phish 
into the campaigns and parties of both political parties this 
past campaign season?
    Representative Pompeo. Senator, as with--I think I answered 
Senator Warner the same way. My obligation as the Director of 
the CIA is to tell every policymaker the facts as best the 
intelligence agency has developed them. With respect to this 
report in particular, it's pretty clear that what took place, 
about Russian involvement in efforts to hack information and to 
have an impact on American democracy.
    I'm very clear about what that intelligence report says, 
and I have every expectation as we continue to develop the 
facts I will relay those, not only to the President, but to the 
team around him and to you all, so that we can have a robust 
discussion about how to take on what is an enormous threat from 
cyber.
    I think you know that. You have lived it. This is very 
real. It is growing. It is not new in that sense. But this was 
an aggressive action taken by the senior leadership inside of 
Russia, and America has an obligation, and the CIA has a part 
in that obligation, to protect that information.
    Senator Feinstein. Thank you very much. I appreciate that.
    Representative Pompeo. Thank you, Senator. And if I may say 
too, thank you very much for coming back today. I hope that 
your recovery is a speedy one.
    Senator Feinstein. Thank you. I appreciate that.
    You and I discussed Director Brennan's beginning efforts on 
modernization of the CIA and trying to set up a different 
mechanism which would make it more effective. What can you tell 
us today about how you would proceed in that direction?
    Representative Pompeo. Senator Feinstein, there was a major 
modernization program that, frankly, is still in the shakeout 
cruise at the Agency. It's been going on for a while, but still 
lots of things to work through.
    My observations from my time as a member of Congress are 
that the goals were noble and they were trying to get to the 
right place, and that in fact many of the changes that were 
made may well end up making sense. But I think we have an 
obligation, as I go in, to evaluate that, share those 
evaluations with you.
    I've heard from a number of you about your observations 
about its effectiveness. Some of you have a set of views that 
are opposed. You may not even know that about each other's 
views yet. But I'm going to take a look. My expectation is that 
from my time as a small business person, when you make a change 
of this scope and scale that you don't get everything right in 
that.
    My obligation is to make sure we've got everything right, 
that there are clear lines of decision-making and authority, 
and that the analytic product that is coming out is true and 
clear and real.
    Senator Feinstein. Just one last question. You mentioned 
the Iranians and what we call the JCPOA. I think, regardless of 
what everyone thinks of the settlement, Iran has shipped some 
25,000 pounds of enriched uranium out of the country. It has 
dismantled or removed two-thirds of its centrifuges. It's 
removed the core from its Arak heavy water reactor and filled 
it with concrete, and it's provided unprecedented access to its 
nuclear facilities and supply chain. Iran's estimated breakout 
time has moved from two to three months to a year or more.
    In November on Fox News, you said you can't think of a 
single good thing that's come from the Iran nuclear deal, not 
one. Now, thus far the CIA has provided oversight to this 
committee with very solid analysis of what the level of 
compliance is, and thus far it has been extraordinarily 
positive.
    I'd like you to comment on this, because--particularly your 
comments, because this nuclear deal is in effect just that. It 
doesn't include other things that are bad things that Iran has 
done. It's just the nuclear agreement, and they have in fact 
conformed to it thus far. So would you comment, please?
    Representative Pompeo. Yes, Senator. First, you have my 
commitment that, if I am confirmed, that the Agency will 
continue to evaluate their compliance with the agreement in the 
way you just described the Agency has been doing to date. I 
agree with you that that work has been good and robust and that 
intelligence I think is important to policymakers as they make 
decisions.
    I think my comments were referring to the post-January 6, 
2015, rampage of Iranian increased activity, and I know you 
share my concern about that as well. So when I was speaking to 
the risks Iran presents, it was certainly from those 
activities, whether it's the fact that they now have missiles 
that we've had to fire back at in Yemen in support of the 
Houthis or that they're still holding Americans in Iran. Those 
are the concerns that I was addressing that day.
    You have my commitment as the Director of the CIA, if I am 
confirmed, that we will continue to provide you the 
intelligence to understand both what's taking place in the 
nuclear arena with respect to the JCPOA and its compliance, as 
well as to the set of activities that are outside of that.
    Senator Feinstein. Thank you very much. I appreciate that.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Mr. Pompeo, thank you, first of all, for your service to 
our country repeatedly, in the Army, in Congress, and now here 
in this new role.
    I know we're going to have a closed hearing later today, so 
the questions I'm about to ask you I'd ask that you answer 
based on open source information available to the general 
public and also your understanding of the law of war as a 
graduate of West Point and your service as an officer of the 
U.S. Army.
    First of all, your understanding as an officer of the U.S. 
Army, is the military targeting of civilians a violation of the 
law of war?
    Representative Pompeo. Senator, intentional targeting of 
civilians is absolutely a violation of the law of war.
    Senator Rubio. Based on open source information available 
to the general public, in the conflict in Syria have Russian 
forces conducted repeated attacks against civilian targets?
    Representative Pompeo. Sir, based on open source reporting, 
it appears that they have.
    Senator Rubio. Do you believe, based on your knowledge, 
again, acquired through open sources and your just general 
knowledge of geopolitics, that Russian military forces could 
conduct repeated attacks against targets in Aleppo, Syria, 
without the express direction of Vladimir Putin?
    Representative Pompeo. It seems intensely unlikely to me, 
Senator.
    Senator Rubio. Again, all the answers you just gave were 
based on open sources, unclassified?
    Representative Pompeo. Yes, sir.
    Senator Rubio. The second question I have is: I think you 
have already said that you accept this as a fact, that there 
was indeed an effort by Russian intelligence and others 
associated with the Russian government to conduct a campaign of 
active measures in the United States designed to sow doubt 
about the credibility of our elections and our democracy, to 
sow divisions and chaos in our politics, to undermine the 
credibility of political leaders and the like. You agree with 
that assessment that we are in the throes of an active measures 
campaign that probably predates this campaign, but was 
certainly ratcheted up?
    Representative Pompeo. Yes, Senator. It's a longstanding 
effort of the Russians. And frankly, there are others out there 
engaged in a similar set of activities. It is something America 
needs to take seriously, a threat that we are vulnerable to 
today.
    Senator Rubio. And in fact, it is the exact activity they 
have undertaken, for example, in Europe and other countries as 
well, and we've seen the same sort of pattern in other places, 
correct?
    Representative Pompeo. Yes, Senator. I'll add to that. We 
have elections, important elections, taking place in Europe and 
around the world. We need to be deeply cognizant about all of 
the foreign actors with malign intent who are attempting to 
impact those elections as well.
    I think the CIA has a role in trying to understand that 
threat and indeed in a fundamental way sharing that with each 
and every member of the policymaking community.
    Senator Rubio. I'm not asking you to divulge any 
intelligence or classified information. Just in your judgment, 
as you see the state of American politics and political 
discourse--a President-elect who has questioned at times the 
judgment of our intelligence agencies, opponents to our 
President-elect who continuously question the legitimacy of his 
election, the shameful leak in the media regarding 
unsubstantiated, unsourced negative information designed to 
smear the President-elect, the fact that Russia and President 
Putin have become a dominant theme in political coverage in 
this country for the better part of three months, if not 
longer--as you look at all of that, in your personal opinion is 
Vladimir Putin and the Russians looking at all this and saying, 
we've done a really good job of creating chaos, division, 
instability in the American political process?
    Representative Pompeo. Senator, you've put a lot into that, 
but let me try and unpack it just a tad. I certainly want to 
make sure and talk only about my observations and judgments 
based on unclassified information. I have no doubt that the 
discourse that's been taking place is something that Vladimir 
Putin would look at and say: Wow, that was among the objectives 
that I had, to sow doubt among the American political 
community, to suggest somehow that American democracy is not 
unique.
    I believe that it is fundamentally unique and special 
around the world. It shouldn't surprise any of us at all that 
the leadership inside of Russia used this as something that 
might well redound to their benefit.
    Senator Rubio. My last question involves an area that you 
may not get asked by anybody else on the committee. You might. 
But it regards the Western Hemisphere. I just ask if you will 
pledge to work within the interagency to make sure that 
collection and coverage in the Western Hemisphere, in 
particular nations like Cuba, Venezuela, Nicaragua, Ecuador, 
and Bolivia, that we focus on threats that might emanate from 
these places?
    Representative Pompeo. Yes.
    Senator Rubio. Thank you, Mr. Chairman.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Thank you, Congressman, for coming down to visit.
    At a time when the President-elect is on record as 
supporting torture, blocking Americans' ability to protect 
themselves with strong encryption, and has encouraged the 
outsourcing of intelligence-gathering to the Russians, it's my 
view you're going to have an enormous challenge to be an 
advocate for honorable policies.
    It's already clear that several key members of the 
President-elect's national security team advocate illegal 
policies. So this morning my view is we need to find out what 
you're for. I'm just going to take us through some of the 
issues we talked about in the office.
    Let's start with surveillance, if we could. You recently 
wrote an op-ed article saying that Congress ought to pass a new 
law reestablishing collection of all metadata. Those are your 
words, ``all metadata.'' So you would basically get the 
Congress and the country back into the business of collecting 
millions and millions of phone records on law-abiding people.
    You go on in this op-ed article to say that these phone 
records ought to be combined with ``publicly available 
financial and lifestyle information'' into a ``comprehensive, 
searchable database.'' So you would be in favor of a new law 
collecting all of this data about the personal lives of our 
people.
    I think that it would be helpful if you could start by 
saying, are there any boundaries in your view to something this 
sweeping?
    Representative Pompeo. Senator, you and I did have a chance 
to discuss this. There are, of course, boundaries to this. 
First and foremost, they begin with legal boundaries that exist 
today.
    That piece that I was referring to was talking about the 
U.S. Government's obligation to do all that it can in a lawful, 
constitutional manner to collect foreign intelligence important 
to keeping Americans safe.
    Senator Wyden. Congressman, that's not true. We were 
talking and you said collecting all metadata.
    Representative Pompeo. Yes, Senator.
    Senator Wyden. All metadata.
    Representative Pompeo. If I might just continue: Yes, I 
still continue to stand behind the commitment to keep Americans 
safe by conducting lawful intelligence collection. When I was 
referring to metadata, I was talking about the metadata program 
that the USA Freedom Act has now changed in fundamental ways. 
I, you should recall, voted for the USA Freedom Act and I 
understand its restrictions, its restrictions on efforts by all 
of the U.S. Government to collect information.
    Senator Wyden. But you wrote this op-ed since the passage 
of the law, so after the law passed you said: Let's get back 
into the business of collecting all of this metadata. I'm 
curious: What kind of information about finances and lifestyles 
would you not enter into your idea of this giant database?
    Representative Pompeo. Sir, first of all, I have to begin 
by saying today that would be--in most instances what you refer 
to there would be lawful under current law. So as the Director 
of the CIA, you have my assurance that we will not engage in 
unlawful activity.
    But I think this committee, the American people, demand 
that if there is publicly available information someone has out 
there on a publicly available site, I think we have an 
obligation to use that information to keep Americans safe. If 
someone's out there on their Facebook page talking about an 
attack or plotting an attack against America, I think you would 
find the Director of the Central Intelligence Agency grossly 
negligent if they don't pursue that information.
    Senator Wyden. Congressman, I don't take a back seat to 
anybody in terms of protecting this country when our security 
is on the line. I wrote the section of the Freedom Act that 
gives the government emergency authority to move when it's 
critical to protect the country.
    That's not what we're talking about here. You're talking 
about your interest in setting up a whole new metadata 
collection system which is far more sweeping than anything the 
Congress has been looking at.
    If you would, before we vote I would like you to furnish in 
writing what kind of limits you think there ought to be on 
something like this.
    [The information referred to follows:]
    Senator Wyden. Let me see if I can get in one more 
question. The President-elect had indicated, on the Apple 
issue, that in effect he thought that there shouldn't be strong 
encryption and that he basically would consider pushing for 
mandated back doors into encrypted products. That's been the 
position of the FBI and some influential members of Congress.
    Now, you have not been a cheerleader, as far as I can tell, 
for weakening strong encryption, which is something I think 
that sounds constructive. If you're confirmed as CIA Director, 
are you willing to take the President, the FBI, and influential 
members of Congress on on this issue? Because I think it's 
clear, weakening strong encryption will leave us less safe. I'd 
like to hear your views with respect to strong encryption, and 
would you be willing to take the President, the FBI, 
influential members of Congress on when they advocate it? 
Because they are going to.
    Representative Pompeo. Senator, first of all, I did not 
mean at all to suggest you were second to anyone with respect 
to keeping America safe. If I implied that, I did not intend 
that. You should know I take a back seat to no one with respect 
to protecting Americans' privacy, either. I think that is 
incredibly, incredibly important.
    With respect to encryption, it's a complicated issue. I 
know enough about it to begin to form judgments, but I want to 
talk to you about the process, the framework I'll use. I think 
this applies across a broad range of issues we've discussed 
today. When we're dealing about an issue like encryption, that 
has commercial implications, national security implications, 
privacy implications, I will do my best to understand what it 
means to the Central Intelligence Agency and what it means to 
our capacity to keep America safe, and I will represent its 
interests as my part of a larger effort to make sure that we 
get the policy decision right.
    And if in fact it is the conclusion of the folks out at the 
Agency and our team and I concur in that assessment, I can 
assure you I will present that rigorously. Whatever the views 
of the person or any of the members of his team, I will do my 
best to get that right in my role as the Director of the CIA if 
I am confirmed.
    Senator Wyden. Thank you, Mr. Chairman.
    Chairman Burr. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Pompeo, first let me say that I was really heartened by 
our meeting and our telephone call, in which you showed that 
you fully understood the role that you have as CIA Director to 
keep this committee well informed. I expressed to you my 
frustration on questioning members of the Intelligence 
Committee and then finding that there was more to the story and 
that there were omissions at times, not deception but 
omissions; and even more frustrating reading in the paper the 
next day leaks that have come from the Administration, not 
necessarily the CIA.
    I think that erodes the trust that is essential for us to 
perform our oversight function, which is absolutely critical 
since you don't have the regular oversight mechanisms. Just for 
the record, if you could reassure me again on your willingness 
to be very forthright with this committee, I'd appreciate it.
    Representative Pompeo. Yes, ma'am. I can assure you of 
that. We talked about the fact that I have lived that life a 
bit as well. I understand it's not only in--that interest is so 
broad. This is what you spoke to. You mentioned it here. This 
is a unique space where we operate in places where the American 
public doesn't always get a chance to see everything.
    So the willingness to make sure that we share this 
information with policymakers who we trust will keep this 
information safe and secure and handle this information 
appropriately is absolutely critical. You have my assurance 
I'll do everything to make sure that this committee has a 
relationship with the Agency that is forthright each and every 
day.
    Senator Collins. Thank you.
    I want to turn to the issue of cyber threats and cyber 
security, which has been an obsession of mine for many years, 
since Joe Lieberman and I tried to bring a cyber security bill 
to the floor in 2012, only to have it filibustered.
    I believe that the recent focus on the cyber intrusions in 
the campaign has greatly increased the public's awareness of 
this problem. But the fact is that the cyber intrusions go far 
beyond the political space, troubling and appalling though that 
is. There was a 2015 memo by the Chairman of the Joint Chiefs 
of Staff and the Secretary of Defense that said that the 
Department of Defense is subjected--this was a public memo--is 
subjected to 100,000 attempted cyber attacks each day.
    Now, those are attempts. Not all of them go through. 
They're from nation-states, they're from terrorist groups, 
they're from hackers, they're from international criminal 
gangs, you name it. That's three million per month.
    How would you assess our preparedness in the cyber domain?
    Representative Pompeo. Senator, we've got lots of work to 
do, may be the best way to summarize that. Not only the 
government that is protecting our systems--and we have talked a 
lot in the last few days about systems that belong to private 
entities, political private entities. But I know that you have 
done a great deal of work in making sure that the national 
infrastructure, including its private sector infrastructure, 
has the capacity to do what it needs to keep not only business 
issues in the place they need to be--a lot of these folks are 
subcontractors to the United States Government, as well as 
private companies that have important information about 
American national security activities.
    So we have an awful lot of work to do. There is no reason 
to expect that this threat is going to diminish. And that will 
take a whole-of-government effort to do, shared by the 
Executive Branch and the Legislative Branch to achieve better 
cyber security for the national infrastructure as well.
    Senator Collins. Let me very quickly express two concerns 
about Iran. One, there are increasing reports that Iran is 
using its civilian air fleet for illicit purposes, including 
the transfer of arms to terrorist groups. If confirmed, would 
you make a priority to provide an assessment to Congress of 
whether or not Iran is using its civilian air fleet for such 
purposes?
    Representative Pompeo. Senator, I will. I'm happy to share 
with you, too--I've read about this as well. I'm happy to share 
with you in closed session the knowledge that I have. It 
concerns me greatly, the activities of Iran Air and Mahan Air 
that are taking place today in Iran.
    Senator Collins. Finally, do you believe that the 
monitoring and verification regime in our agreement with Iran, 
the JCPOA, as currently constructed is adequate to ensure that 
Iran is fully complying with the agreement? Do you think that 
the IAEA has sufficient access to detect any Iranian cheating?
    Representative Pompeo. Senator, the Iranians are 
professionals at cheating. So I think we have a very sound 
inspection regime. I have to tell you, I worry about the fact 
of a thing we do not know we do not know. So you have my 
commitment that I will continue to improve and enhance our 
capacity to understand that and do everything I can to diminish 
the risk that in fact we are missing something.
    Senator Collins. Thank you.
    Chairman Burr. Senator Heinrich.
    Senator Heinrich. Thank you, Chairman.
    Thank you, Congressman Pompeo, for taking the time to sit 
down with me earlier this week and for your willingness to 
answer the prehearing questions that a number of us submitted 
to you. I hope your responsiveness to committee inquiries 
continues unabated should you be confirmed. That was certainly 
the tone that you set with me in the office and I appreciate 
that.
    As I told you in our conversation, I have serious concerns 
over the last few years that that has not always been the lay 
of the land between the Director and this committee.
    I understand that the DCIA has a mandate to be fully 
supportive of the men and women who work there. That is 
critical. However, I also hope that, if you are lucky enough to 
fill that very important position, that we will have a new 
approach of being open in hearings and with regard to 
Congressional oversight.
    I want to start on an issue that was central in some of the 
prehearing questions and in our conversation. You indicated 
that you would seek the counsel of experts at the CIA to 
determine whether adhering to the Army Field Manual in 
conducting interrogations was an impediment to gathering vital 
intelligence. You've been supportive of the use of enhanced 
interrogation techniques in the past, saying back in September 
of 2014 that President Obama has continually refused to take 
the war on radical Islamic terrorism seriously, and cited 
ending our interrogation program in 2009 as an example.
    Can you commit to this committee that under current law, 
which limits interrogation to the Army Field Manual, that you 
will comply with that law and that the CIA is out of the 
enhanced interrogation business?
    Representative Pompeo. Yes, you have my full commitment to 
that, Senator Heinrich.
    Senator Heinrich. Thank you.
    Let me jump to another issue. Senator Wyden had touched on 
this earlier, but I want to follow up a little bit. As the 
Director and as somebody who sat on the House Intelligence 
Committee over the last couple of years, you are very familiar 
with the changes in the law that have been made. Under current 
law, the USA Freedom Act that was passed recently, what changes 
in that law would you encourage the Administration to seek, if 
any?
    Representative Pompeo. Senator, I currently have no 
intention of seeking such changes. But I think we discussed 
when we met, I am certain if I am confirmed to learn a great 
deal and develop a deeper understanding and hear lots of views 
inside the Agency. And I will, I'll look to experts there and 
experts outside. If in fact I conclude that there needs to be 
changes to the USA Freedom Act to protect America, I will bring 
them to you, and I have full expectations that you will 
consider them fairly as well.
    Senator Heinrich. I know we were recently briefed on 
basically the status of being able to collect important 
information under that law. I would assume that there was 
probably a similar briefing on the House side. Were you a part 
of that? And do you feel like, at least with what you know 
today, that the surveillance that needs to be done is happening 
under that structure while protecting innocent Americans from 
unnecessary intrusion?
    Representative Pompeo. Senator, I've not had a chance to 
have a complete briefing on that, but I can say that I have not 
heard anything that suggests that there is a need for change 
today.
    Senator Heinrich. Jumping once again over to the JCPOA, I 
know that the day before you were nominated to be the Director 
you said that you look forward to, quote, ``rolling back the 
Iran deal.'' How would you characterize your position on that 
today, and would you stand by that statement?
    Representative Pompeo. Senator, just so the record can 
reflect it, that communication was approved before I was aware 
that I was going to be the nominee to the Central Intelligence 
Agency.
    Having said that, look: I spoke to this a great deal. It 
was my view that the JCPOA was a mistake for American national 
security. I believed that. But it's also the case that after 
that I came to an understanding that that was the arrangement 
this President thought was in the best interests of America, 
and I worked to make sure it was fully implemented.
    Now, if I'm confirmed I'll continue to do that in my role 
as the Director of the CIA. I will endeavor to provide straight 
information to you about the progress that the JCPOA has made 
toward reducing the threat from Iranian nuclear activity and 
share with you when that's not happening as well.
    Senator Heinrich. Thank you, Congressman.
    Chairman Burr. Senator Blunt.
    Senator Blunt. Thank you, Chairman.
    Congressman, I know we were all pleased to get a chance to 
visit with you privately. Quickly, you reached out to members 
on this committee and met with us, and we'll have a chance to 
visit later today in the classified setting.
    I would go back a little bit to your discussion with 
Senator Wyden. One of your last comments you made there was you 
gave ground to no one in respecting America's privacy. If you 
want to give any examples of that in your House career, that 
would be fine. But as I understand--as I understood what I 
thought was that discussion about a more expanded collection 
effort, it was collecting things that people had chosen to no 
longer keep private--collecting things on social media that 
people had put out there.
    I believe at some point you mentioned that somebody was 
talking about an activity that could be terrorist or other 
related, that they directed the CIA should have some interest 
in that.
    Am I right, you see a different privacy standard if someone 
is trying to maintain their privacy as opposed to someone who's 
putting information out there that anyone can see?
    Representative Pompeo. Senator, of course. And I may not 
have added there----
    Chairman Burr. Mike, hit your button.
    Representative Pompeo. Yes, sir.
    I may not have added there, the primary responsibility for 
that here in the United States is not the Central Intelligence 
Agency. There would be other agencies inside the Federal 
Government. So in the first instance, the focus in the Central 
Intelligence Agency is foreign intelligence collection. Make no 
mistake about that.
    But yes, I was referring to things that were in the public 
space that the U.S. Government wanted to make sure they 
understood fully and that we didn't leave publicly available 
information off of things that we were using to prevent all 
kinds of bad and terrorist activity here in the United States. 
As a member of Congress, I voted repeatedly on pieces of 
legislation that were important for protection of American 
privacy. It's something that, if you come from south-central 
Kansas and people know--you know that, being from Missouri--
people are deeply cognizant of the need for space for 
themselves to live away from the government. It is something 
that I hold dear and treasure myself as well.
    Senator Blunt. On the issue of encryption, I for some time 
on this committee and even in public hearings, and specifically 
in public hearings, have had both the Director of the FBI and 
NSA--I can recall both of them saying encryption is the best 
thing out there and maybe in some cases the worst thing out 
there.
    There seems to be a real sense that encryption is more 
often a cyber protection than something that we should create a 
way around. What's your view of encryption in an ongoing way 
and what the government could or should do to try to permeate 
the encryption that's already out there in equipment?
    Representative Pompeo. Senator, I always start on this 
topic reminding that my role as the Director of the CIA is 
first to comply with the law. So as you develop policies around 
encryption, you have my assurance that I'll always direct the 
people who work for me to comply with the law with respect to 
private communications.
    Second, I think we need to acknowledge that encryption is 
out there and that not all encryption takes place here in the 
United States, and that the rules and policies that we put in 
place in America are things that the intelligence community is 
going to have to figure out a way to perform its function 
knowing that that encryption will continue to be out there.
    Then finally, we've spent a lot of time talking about how 
we handle encrypted devices for Americans or encryption here in 
the United States. My effort will be to understand it more 
fully, to make sure that I understand its impact on my role to 
keep America safe, to work alongside and develop a set of 
policies to achieve that goal, while still achieving all the 
other goals that we have here in America.
    Senator Blunt. And spending some time in House 
Intelligence, seeing the relationship between the DNI and the 
CIA, what do you think you can do to add to the ability of the 
DNI to do the originally stated job of coordinating 
information, being sure everybody has access to the information 
that's out there in a better way than we are currently seeing?
    Representative Pompeo. The statute is pretty clear about 
our respective roles and responsibilities. I have had a chance 
to reread that a couple times since my nomination. I'm excited 
at Senator Coats' nomination. If he's confirmed, I look forward 
to working alongside of him.
    I've also read the histories. I know that there have been 
conflicts between the Director of National Intelligence and the 
Director of the Central Intelligence Agency. In my role as a 
small business owner, I saw that, too, where there's different 
people with different roles and you'd see conflict. My effort 
was every day to work hard to make sure that we were additive, 
that we each found our own space, that we worked across those 
borders, not only individually, but that we directed our 
individual organizations to accomplish that as well.
    So it's not just the two senior officials, I think, that 
have had conflict. We need to make sure our organizations each 
understand that there's a place for the Director of National 
Intelligence, to ensure that there is good communication among 
the dozen-plus intelligence agencies, and that that information 
is shared in a timely fashion, and that the Director of the CIA 
has his plate full performing his primary functions as well.
    Senator Blunt. Thank you.
    Thank you, Chairman.
    Chairman Burr. Senator King.
    Senator King. Thank you, Mr. Chairman.
    Congressman Pompeo, welcome. I always--as we discussed, I 
believe that an outside view of an agency that tends to be--not 
tends to be, but is--secretive is an important point of view. 
So I appreciate your willingness to serve.
    The larger question--the great foreign policy mistakes of 
my lifetime--Vietnam, Bay of Pigs, and Iraq--all were based in 
one way or another on bad intelligence or, more accurately, 
intelligence that was tailored to fit the demands of the 
policymakers. You can't read the history of those decisions 
without coming to that conclusion.
    There is no more intimidating spot on the face of this 
Earth than the Oval Office. Will you commit to giving the 
Commander in Chief, the President, unpleasant news that may be 
inconsistent with his policy preferences, based upon the best 
intelligence that the CIA can develop?
    Representative Pompeo. Senator, you have my commitment. 
While I today am going to avoid talking about conversations 
that the President and I had with as much energy and effort as 
I can, I can tell you that I have assured the President-elect 
that I'll do that as well. I shared with him that my role is 
central to him performing his function and important and 
critical only when I perform my function in that way, when I 
take the great work that these men and women put their lives at 
risk to develop and I deliver that to every policymaker in a 
way that is straight up and forward. I commit to doing that 
with you and the President.
    Senator King. If he doesn't say at some point ``Mike, I'm 
disappointed in you. Is that the best you can do?'', you've 
failed.
    The President-elect's choice for National Security 
Director, General Flynn, has been quoted as saying that the CIA 
has become a very political organization. In your written 
response to our questions, you said ``There is a sense of a 
more politicized intelligence environment.'' That's sort of 
like saying people are saying there's a politicized 
intelligence environment. What do you mean by ``there is a 
sense of.'' Do you agree with General Flynn or do you not?
    Representative Pompeo. Sir, I've had a chance as overseer 
to observe the Central Intelligence Agency. I have had a chance 
to sit with them and watch them fight through fire to get the 
real facts. I have seen, however, I've seen political actors of 
all stripes attempt to try and shape that. And I don't mean in 
hard ways. There's no demand----
    Senator King. I'm not talking about outside political 
actors. I'm talking this allegation is that the Agency itself 
has become politicized. Do you believe that?
    Representative Pompeo. My experience is I do not believe 
that.
    Senator King. I appreciate that.
    There are unsubstantiated media reports that there were 
contacts between the Trump campaign and the Russians. If 
confirmed, will you commit to exploring those questions and if 
you find there is validity to those allegations refer the 
information that you discover to the FBI?
    Representative Pompeo. I want to make it clear that I share 
your view that these are unsubstantiated allegations.
    Senator King. I emphasized that.
    Representative Pompeo. I understand that.
    Senator King. These are very serious allegations.
    Representative Pompeo. There are a number of very serious 
things that have taken place. The leaks that have occurred as 
well I consider to be intensely serious, too. I think that 
Director Clapper's statement from last night or this morning 
about his concern about these leaks is worthy as well.
    But to your question more directly, I promise I will pursue 
the facts wherever they take us. The Central Intelligence 
Agency has that as one of its singular functions. You have my 
commitment that I'll do that with respect to this issue and 
each and every other issue as well.
    Senator King. Thank you.
    On July 24, 2016, you sent the following Twitter, quote: 
``Need further proof that the fix was in from President Obama 
on down. Busted, 19,252 emails from DNC leaked by WikiLeaks.'' 
Do you think WikiLeaks is a reliable source of information?
    Representative Pompeo. I do not.
    Senator King. And the fact that you used the word 
``proof,'' ``need proof,'' that would indicate that you didn't 
think it was a credible source of information?
    Representative Pompeo. Senator King, I have never believed 
that WikiLeaks is a credible source of information.
    Senator King. Well, how do you explain your Twitter?
    Representative Pompeo. I don't----
    Senator King. Sorry. I don't want to be accused of the 
wrong term there.
    Representative Pompeo. I understand. I'd have to go back 
and take a look at that, Senator. But I can assure you I have 
some deep understanding of WikiLeaks and have never viewed it 
as a credible source of information for the United States or 
for anyone else.
    Senator King. I appreciate that. Thank you. I appreciate 
your candor here today and look forward to further discussions. 
I just hope that you will hold onto the commitment that you 
made today, because it's not going to be easy. But your primary 
role is to speak truth to the highest level of power in this 
country. I appreciate again your willingness to serve.
    Representative Pompeo. Thank you very much, Senator.
    Chairman Burr. With the indulgence of all members, I made a 
promise to all members on the committee that were they in other 
confirmation hearings and they showed up I would show them 
preferential treatment on recognition. And if there is no 
objection, I would like to recognize Senator McCain for five 
minutes of questions.
    Senator McCain. I thank you, Mr. Chairman, and I apologize 
to the chairman of the committee for the hearing on General 
Mattis.
    I'm here to support Congressman Pompeo's nomination, 
despite that he has overcome a very poor education and he's 
been able to surmount that handicap, which has been a burden 
for him throughout his career.
    I just want--as you know, we conducted--we passed 
legislation that the treatment of prisoners would only be in 
accordance with the Army Field Manual, and that law was passed. 
The vote was 93 to 7 in the United States Senate on that 
particular amendment.
    Will you continue to support that and enforce that law?
    Representative Pompeo. Senator McCain, I voted for that and 
I will.
    Senator McCain. Thank you.
    And will you, if you have any new recommendations for 
changing the Army Field Manual or other rules governing 
interrogations, you'll share those with the Congress?
    Representative Pompeo. Yes, sir.
    Senator McCain. I don't want to take the time of the 
committee, but obviously the Russians have been hacking. 
There's no doubt about that, obviously. And whether they 
intended--what their intentions were and whether they actually 
succeeded or not, there was certainly no evidence.
    What do you think it's going to take to deter Vladimir 
Putin's continued interference, not just in our elections, but 
attempts to have access to our most sensitive classified 
materials, secrets? There's a long, long list of offenses in 
cyber that Vladimir Putin and the Russians have basically 
compromised our national security. What do you think it takes 
to deter him?
    Representative Pompeo. I don't know that I could answer 
that question comprehensively today, but I can tell you it's 
going to require an incredibly robust American response, a 
response that is a security-related response. That is, we have 
to get better at defending against these, and a response that 
holds actors accountable who commit these kinds of actions 
against the United States of America. The form, the nature, the 
depth, the severity of those responses will be the decisions of 
policymakers, that will be beyond me as the Director of the 
Central Intelligence Agency.
    But I do view my role there as essential in providing you 
with a deep understanding of what's taking place, how that took 
place, and a set of options surrounding the kinds of things in 
the intelligence world at least one might take action on so we 
can successfully push back against them.
    Senator McCain. Wouldn't we first have to establish a 
policy as to how we treat cyber attacks, and therefore from 
which we can develop a strategy? Right now we have no policy.
    Representative Pompeo. Senator, I would agree with that. It 
is very important that America, all of government, develop a 
policy with respect to this, and I promise I'll work alongside 
you to help develop such a policy with good intelligence.
    Senator McCain. Right now we are treating their attacks on 
a case by case basis, which is neither productive nor an 
enterprise that will lead to success.
    Representative Pompeo. I would agree with that, Senator.
    Senator McCain. Do we have the capabilities, in your view, 
to adequately respond to cyber attacks? I'm talking about the 
capabilities now, not the policy.
    Representative Pompeo. Senator, I want to be a little 
careful in open session talking about the full scope of 
American capabilities. But this is an amazing Nation with 
incredibly smart people, and if given a policy directive to 
achieve the objective you're describing I am confident that 
America can do that.
    Senator McCain. I thank the Chairman and the indulgence of 
the committee.
    Congressman, I'm sure you'll do an outstanding job and look 
forward to working with you.
    Representative Pompeo. Thank you, Senator.
    Chairman Burr. Senator Lankford.
    Senator Lankford. Thank you, Mr. Chairman.
    Mike, it's great to see you. You and I served together in 
the House. I saw up close and personal the tenacity of your 
work and how seriously you took your task there, that you 
engaged immediately in policy issues and that your passion was 
to be able to come and help. That still remains today.
    Your greatest asset is no doubt Susan and your tremendous 
relationship and your family. I know that will be a great asset 
to the Nation as well. So thank you for stepping up to do this. 
Your whole life changed a month ago when you accepted the 
possibility of the nomination for this. So thanks for stepping 
up and doing it.
    Let me ask you about the role of the CIA and its face and 
the direction that it looks. Can you walk me through your 
philosophical perspective of it being a foreign face, and what 
is the role in the United States for the CIA?
    Representative Pompeo. Senator, first of all, thanks for 
the kind words. I enjoyed working alongside you on foreign 
policy matters as well.
    Look, the Central Intelligence Agency has the mission to 
steal secrets and it's to be an espionage agency, getting hold 
of information that bad actors around the world don't want us 
to know. These are foreign entities, foreign actors, foreign 
countries. Whether it's Iran or Russia or whoever that actor 
may be, the intelligence agency's fundamental role is to make 
sure that we deliver that information to policymakers so that 
you can make informed judgments about how to respond to keep 
America safe.
    That's its function. It has lots of pieces to it. There are 
people pieces. We have to make sure we have the finest talent 
all across America so that it can deliver that product. We have 
to make sure that we have policies and processes in place so 
that we can deliver that. We need to make sure, when asked to 
perform covert action activities, that we do so in a 
professional way, consistent with the law, and vigorously 
execute the President's directives there.
    This is a world-class foreign intelligence service that, if 
confirmed, I am humbled to have the opportunity to lead.
    Senator Lankford. Let me ask about gathering intelligence 
and getting it on a timely basis to the President and 
decisionmakers and policymakers. It has been one of the ongoing 
disputes, the speed of the turn-around, how fresh that 
information, and at times for agencies to think and re-think, 
edit and re-edit information, so that by the time you get it 
it's so stale, it's so cold, that it's not as useful any more.
    Talk me through just the methods and thoughts about trying 
to get fresh information to policymakers and the President?
    Representative Pompeo. Senator, it's incredibly important 
that the information is timely. I understand sometimes there is 
a tradeoff between accuracy and speed and depth. That's 
something I've dealt with in the times I've run my two small 
companies. We have to make sure that the CIA is world-class 
with respect to developing this information in a timely, speedy 
fashion and getting it to policymakers in a way that is both 
reliable and timely.
    We've all seen this. It's a complex world with difficult 
foreign intelligence collections and pockets. We have to make 
sure that the agency is world-class with respect to delivering 
that to you.
    Senator Lankford. Let me ask a strange question for you. 
You are going to often be in meetings with Dan Coats and the 
President and yourself. What's the difference in the 
information that you're bringing to the President? How can you 
and the Director of National Intelligence cooperate together in 
bringing information, and what's the difference in your roles 
there as the two of you sit and bring information to the 
President?
    Representative Pompeo. Look, the DNI, Senator Coats if he 
is confirmed in his role, will have the important function of 
being the President's senior intelligence policy adviser. I 
have the glory, if confirmed, to lead the world's premier 
intelligence collection agency, certainly with respect to human 
intelligence. I hope to be part of making it even better. So 
we'll bring a set of different perspectives. He will spend more 
time evaluating intelligence that comes from different parts of 
the intelligence community and I will focus on the work that 
our Agency does. I'm pretty confident that he and I will work 
together to deliver a comprehensive view of America's 
intelligence posture and the information that has been derived 
from that.
    Senator Lankford. Thank you very much, Mike, for your 
service; and Susan, for yours as well.
    Mr. Chairman, thank you.
    Chairman Burr. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Congressman, thank you for your service.
    Representative Pompeo. Thank you, Senator Manchin.
    Senator Manchin. Also, congratulations for your nomination 
and to your family, who I'm sure are extremely proud, as they 
should be.
    With that being said, we live in a troubled world today, as 
we all know. I think I just want to hear your thoughts on your 
experiences within the military and also your experience as a 
Congressperson in the position you've had in Congress on what 
you consider the greatest threat the United States of America 
faces today and what person brings the greatest threat to our 
country and wants to do us harm?
    Representative Pompeo. Senator, it's always hard to rack 
and stack, especially in terms of the turmoil that we find in 
the world today. But let me give it a throw. I begin with the 
threat from terrorism as it extends into the homeland. If you 
ask what is the most immediate threat, I think it's certainly 
that. That is, it presents the most immediate threat of 
personal risk to a person living in south-central Kansas. So we 
need to be----
    Senator Manchin. Is there a country associated with that?
    Representative Pompeo. Boy, there are too many to name. But 
let's start with activity that's taking place today in Syria 
and Iraq with terrorists, both Sunni and Shia terrorists 
opposed to the United States. ISIS and Al Qaida would be the 
primary organizations today, but it extends far beyond that. 
We've also seen challenges from other radical Islamic 
terrorists.
    Senator Manchin. You believe that terrorism is the highest 
threat we face? I'm just saying, in your position right now, in 
your experience?
    Representative Pompeo. In the near-term threat to life and 
limb of Americans, yes. I'd put North Korea, China, and Russia 
right up there alongside them.
    Senator Manchin. Which one has the weapons to do us harm?
    Representative Pompeo. The nuclear powers are the ones that 
have the biggest threat to do catastrophic harm to the United 
States.
    Senator Manchin. And which person in the world in your 
estimation has the desire to do us the most harm?
    Representative Pompeo. Boy, to ask me for a singular 
individual is really a tough question, Senator Manchin. The 
list is long.
    Senator Manchin. There's a lot of them?
    Representative Pompeo. Yes, sir.
    Senator Manchin. West Virginians are asking me continually: 
Can we trust the intel community? And I go back--I keep 
referring back because of a lot of the political campaign 
rhetoric. We had weapons of mass destruction. We declared war 
on Iraq. We found out that we could have taken a different 
course or altered that course. So they have concerns about 
that.
    I would just like to ask, do you have confidence in the 
intel community, the CIA in particular that you're going into?
    Representative Pompeo. I do. Look, I'd never stand here 
today to tell you that the Agency has had perfection throughout 
its history, nor that it will have perfection if I'm confirmed 
on my watch. But I have great confidence in the men and women 
who work there. They are patriots, they're warriors. They are 
real people who have dedicated their lives to keeping America 
safe. And I have the utmost confidence that if I am confirmed I 
will get an opportunity to lead efforts that aren't 
politicized.
    Senator Manchin. Right now, I think you'd have to agree 
that the morale is fairly low and they're being hit by many 
different angles and different sides through the political 
process that we go through, which can be very damaging, if you 
will. What's your first step that you intend to take if 
confirmed to lift that morale up and let them know that we're 
on the same side?
    Representative Pompeo. I might just respectfully disagree 
with your question a little bit. I have in the last few weeks 
had occasion to spend a little time with a handful of people 
out there. I haven't seen the bad morale as you have described 
it. But they're human beings. They're Americans, too. They 
watch the political process.
    What I have seen from the spirited warriors at the Central 
Intelligence Agency is a desire to sort of get out of the 
middle of this fight and continue to perform their function, to 
do their work in a way that they know how to do.
    I don't mean to denigrate the leadership of the Central 
Intelligence Agency at all today. Director Brennan has 
performed amazing service to America for a long time. But many 
of them have served under multiple Presidents as well, and they 
know that times change and leaders change. I think they're very 
much looking forward to the new Administration to help them to 
continue their function.
    Senator Manchin. I definitely wish you well.
    My final question would be your thoughts on sanctions. What 
would be your thoughts on sanctions? Because as we're looking 
at sanctions should we be looking at it state by state and 
country by country? Or should we have a blanket piece of 
legislation here that says that any country that has been a 
state sponsor of cyber attacks on the United States of America, 
should we not have sanctions in place to address all of them 
the same? Or should it be country by country, deciding on what 
sanctions that we think would be more detrimental?
    I'm just saying that if the intel community confirms that a 
state-sponsored effort, they should know exactly what they're 
going to be facing if we confirm that.
    Representative Pompeo. Senator, You've actually given me my 
first opportunity to step out of the political world today and 
tell you: Look, that decision, that policy, I think will be 
left to others. I do have a record with respect to sanctions. I 
voted for legislation authorizing sanctions on a number of 
countries during my time as a member of the United States House 
of Representatives.
    Senator Manchin. Were they evaluated country by country?
    Representative Pompeo. My recollection is, Senator, they 
were nation by nation sanctions that we were evaluating.
    Senator Manchin. So basically, whatever relationship you 
had with that nation, you could be a little easier on one and 
tougher on another. Don't you think as policymakers that we 
should have sanctions that, listen, if you do this to us and 
it's confirmed that it's state-sponsored by you, whether it be 
financially, whether it be economically, whatever it might be, 
these sanctions will go into effect immediately?
    Representative Pompeo. Senator, I'm going to defer on the 
policy question today. I'll make sure you have all the 
information you need to form good judgments about it. Thank you 
very much.
    Senator Manchin. Thank you very much.
    Representative Pompeo. Thank you, sir.
    Chairman Burr. Senator Cotton.
    Senator Cotton. Mike, welcome before the committee and 
congratulations on your nomination to be the Director of 
Central Intelligence. Susan and Nick, it's good to see you 
again. I know that you're very proud of Mike, as we all are.
    This has been a very thorough hearing. We have spent lord 
knows how many hours at the Agency and traveling around the 
world, so I think I have a pretty good sense of your views on 
these questions. Therefore I will reserve the rest of my 
questions until the closed hearing, where we can have a little 
bit more frank discussion.
    Since Senator McCain scurrilously attacked your education, 
I will stand up for our Army background. I will say I'm 
troubled somewhat by the material I found in your biography 
that you came in first in your class at West Point and 
therefore had your choice of branches and chose armor instead 
of infantry. I will consider this a youthful indiscretion that 
does not reflect on your current service, and I will see you 
this afternoon.
    Representative Pompeo. Thank you, Senator Cotton.
    Chairman Burr. I am glad to see, Mike, that you haven't 
forgotten where the razor is, like some Army veterans.
    [Laughter.]
    Senator Cotton. I'm preparing to collect covertly.
    Chairman Burr. Senator Harris.
    Senator Harris. Representative Pompeo, I was glad to meet 
with you earlier this week and congratulations on your 
nomination.
    For clarification, have you read in its entirety the IC 
report assessing Russian activities and intentions in recent 
U.S. elections?
    Representative Pompeo. I have.
    Senator Harris. Do you fully accept its findings, yes or 
no?
    Representative Pompeo. I've seen nothing to cast any doubt 
on the findings in the report.
    Senator Harris. Your voting record and stated position on 
gay marriage and the importance of having a, quote-unquote, 
``traditional family structure'' for raising children, that's 
pretty clear. I disagree with your position, but of course 
you're entitled to your opinion.
    I don't want that, however, to impact, your opinion on that 
matter, the recruitment or retention of patriotic LGBT women 
and men in the CIA, some of whom have, of course, taken great 
risks to their lives for our country. Can you commit to me that 
your personal views on this issue will remain your personal 
views and will not impact internal policies that you put in 
place at the CIA?
    Representative Pompeo. Senator Harris, you have my full 
commitment to that. I would only add that in my life as a 
private businessman this same set of issues was out there. I 
had my views at that time as well, and I treated each and every 
member of the workforce that I was responsible for at those 
times with dignity and respect and demanded of them the same 
things that I demanded of every other person that was working 
as part of my team.
    Senator Harris. And do I have your assurance that this 
equal treatment will include policies related to child care 
services, family benefits, and accompanied posts for 
dependents?
    Representative Pompeo. Without knowing the full set of 
policies and benefits at the Central Intelligence Agency--I 
haven't had the chance to find that out just yet--you have my 
assurance that every employee will be treated in a way that is 
appropriate and equal.
    Senator Harris. And that you will not put in place any 
policies that would discriminate against any members because of 
their sexual orientation?
    Representative Pompeo. I can't imagine putting in place any 
policy that was discriminatory with respect to any employee.
    Senator Harris. Thank you.
    I'm also concerned about rhetoric related to Muslims from 
high-profile members of the incoming Administration, 
particularly Lieutenant General Michael Flynn, with whom I 
imagine you'll be working closely. I don't want to impact 
recruitment or retention of the patriotic, critically important 
Muslim men and women of the CIA, some of course who have taken 
great risks to serve our country. Can you commit to me that you 
will be a tireless advocate for all members of the CIA, all of 
the workforce?
    Representative Pompeo. Yes, ma'am.
    Senator Harris. CIA Director Brennan, who has spent a 25-
year career at the CIA as an analyst, a senior manager, and 
station chief in the field has said that when, quote, ``CIA 
analysts look for deeper causes of rising instability in the 
world, one of the causes those CIA analysts see is the impact 
of climate change.''
    Do you have any reason to doubt the assessment of these CIA 
analysts?
    Representative Pompeo. Senator Harris, I haven't had a 
chance to read those materials with respect to climate change. 
I do know the Agency's role there. Its role is to collect 
foreign intelligence, to understand threats to the world--that 
would certainly include threats from poor governance, regional 
instability, threats from all sources--and deliver that 
information to policymakers. To the extent that changes in 
climatic activity are part of that foreign intelligence 
collection task, we will deliver that information to you and to 
the President.
    Senator Harris. In the past you have questioned the 
scientific consensus on climate change. Nevertheless, according 
to NASA multiple studies published in peer-reviewed scientific 
journals showed that 97 percent or more of actively published 
climate scientists agree that climate warming trends over the 
past century are extremely likely due to human activities. In 
addition, most of the leading scientific organizations 
worldwide have issued public statements endorsing this 
position.
    Do you have any reason to doubt NASA's findings?
    Representative Pompeo. Senator, I've actually spoken to 
this in my political life some. My commentary most all has been 
directed to ensuring that the policies that America put in 
place actually achieve the objective of ensuring that we didn't 
have catastrophic harm that resulted from change in climate. I 
continue to hold that view.
    I frankly as the Director of CIA would prefer today not to 
get into the details of climate debate and science. It seems my 
role is going to be so different and unique from that. It is 
going to be to work alongside warriors, keeping Americans safe. 
So I stand by the things that I've said previously with respect 
to that issue.
    Senator Harris. I'm not clear. Do you believe that NASA's 
findings are debatable?
    Representative Pompeo. Senator, I haven't spent enough time 
to tell you that I've looked at NASA's findings in particular. 
I can't give you any judgment about that today.
    Senator Harris. Can you guarantee me that you will and 
we'll have a follow-up conversation on this?
    Representative Pompeo. I'm happy to continue to talk about 
it, yes, ma'am, of course.
    Senator Harris. Thank you.
    Chairman Burr. Senator Cornyn.
    Senator Cornyn. Congratulations, Congressman Pompeo, on 
your nomination.
    Representative Pompeo. Thank you, Senator.
    Senator Cornyn. And your family, I know they're very proud 
of you. I have every confidence that you will do an outstanding 
job as the next Director of the CIA.
    I want to ask you about the comments that were made by the 
FBI Director back in May 2016 when he identified what he called 
the ``Ferguson effect'' on law enforcement. Hang in there with 
me and let me make the application to this context. Basically, 
the argument is that law enforcement was being self-restrained 
in terms of its policing activities, thus exposing law 
enforcement to assaults, many of which were deadly assaults, 
and that public safety was not being enhanced because they were 
not using the full array of their authorities for fear of what 
might happen in terms of public opinion or political 
retribution.
    I have read your predecessor's, General Michael Hayden's, 
book ``Playing to the Edge'' and it strikes me that he states 
the proposition well in terms of my view about what our 
intelligence authorities ought to do in collecting intelligence 
and protecting the safety and security of the United States.
    I don't want our intelligence officers and authorities to 
restrain their activities for fear of political retribution or 
fear that they will be criticized for using the lawful 
authorities granted by the United States Government to the 
edge, not going over the edge. But I want to make sure that 
they take full--they take full use of those lawful authorities.
    I know that one of the conundrums that we have in a 
democracy is that when we start talking about what those 
authorities are and what they should be there is a natural 
reticence to do so because, of course, in Russia and China and 
North Korea and Iran they don't have those problems. In 
dictatorships and autocracies, they just do what they want to 
do without regard to any oversight, any laws, any constitution, 
that necessarily and importantly limits what we can do in a 
democracy.
    But I think there is a danger when we start talking about 
the role of our intelligence agencies that, either wittingly or 
unwittingly, sometimes misinformation or disinformation about 
the nature of the activity and nature of the authorities enters 
into the debate in a way that eventually damages or limits our 
ability to play to the edge of our lawful authorities and the 
interests of our security and safety.
    I just want to get an idea from you about what you think 
the Director's role is in terms of engaging in the debate when 
it comes to what authorities that either your Agency or the FBI 
or other members of the intelligence community need. There was 
a question about metadata, which of course metadata is not 
content. The United States Supreme Court has said that there's 
no reasonable expectation of privacy, so the Fourth Amendment 
isn't implicated. This is information that's routinely 
collected by other, by law enforcement agencies.
    My concern is--and maybe I'm not being as direct and clear 
as I should--I just want to know what you think your role will 
be in terms of standing up and defending the lawful authorities 
of the intelligence community in order to play to the edge of 
that legal authority in the interest of the safety and security 
of the American people.
    Representative Pompeo. Senator, thank you for that 
question. It's a great and incredibly important question. I 
share your concerns that we run the risk of not using the 
authorities in a way that is important in keeping America safe 
if folks are afraid that there will be political retribution.
    One of my tasks in that vein will be to make sure that 
we're doing it right, that we are doing it in a legal and 
constitutional way, and then when we are to defend the people 
who are doing that vigorously to have their backs at every 
single moment. You have my word that I will do that.
    There's a second piece to this as well I think that is 
important and you hit upon it, which is I think we have an 
obligation as leaders to share with the American people all 
that we can about what's going on and what's not going on and 
to do so in a truthful and complete manner. It's part of why I 
think the oversight function is so important. To the extent 
we're surprising people, whether we're surprising members of 
Congress or we're surprising the public, we run the risk of 
losing those very important authorities.
    So I think each of us has a responsibility and if confirmed 
as the Director of the CIA I will see it as my responsibility 
to do everything I can to make sure that we're talking about 
the critical nature of these authorities and how they keep 
Americans safe and the goals that they have accomplished in 
this good work in a way that permits the intelligence community 
to lawfully and constitutionally do all of its 
responsibilities.
    Senator Cornyn. Mr. Chairman, can I follow up just briefly 
with one last question.
    Chairman Burr. The Senator can.
    Senator Cornyn. And of course none of those authorities are 
going to be decided in all likelihood by the Supreme Court of 
the United States. In other words, the Office of Legal Counsel, 
the appropriate authorities at the Department of Justice, are 
going to give guidance to the CIA and our intelligence 
community on what those--where that line is so you can, 
consistent with your commitment, make sure that you apply the 
law that Congress has passed and as signed by the President.
    But ultimately, no one's ever going to give you 100 percent 
assurance that you're playing consistent with those laws as 
interpreted by the Department of Justice and the Office of 
Legal Counsel won't be criticized in a political format later 
on in such a way as to cause retaliation perhaps, or some 
concern that intelligence officers are going to jeopardize 
their career and their family's livelihood by playing 
consistent with the best and highest legal guidance that 
they're given.
    How do you view that role? And maybe that's just inherent 
in the nature of our system, but it always strikes me as a 
tremendous disservice to our men and women in the intelligence 
field for politics to intervene and come back and undermine the 
lawful authorities and direction that our intelligence 
community is given when they're conducting their activities.
    Representative Pompeo. Senator, it's a real risk. It's an 
important part of my role to make sure that we have clarity, 
that those lines that you talk about are clear and bright, and 
so that this risk that you refer to--I've heard others talk 
about it as second-guessing--is minimized, happens as rarely as 
possible, and that there aren't surprises to people as they go 
through.
    That's incredibly important, and the Director of the CIA 
has an important role there, both making sure that we're 
behaving lawfully and, when we do, defending the men and women 
who we ask to do really hard things inside of those laws.
    Senator Cornyn. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. The Chair will recognize Senator Warner for 
a brief statement and then Senator Wyden for one question.
    Senator Warner. I understand what my friend the Senator 
from Texas has been saying, but I just wanted to respond and 
put on the record--one of the things that's impressed me with 
you, Congressman, in our meetings is your thoughtfulness, and I 
think you're a student of history as well, and we've talked 
about that. I think part of the responsibility of the Agency 
you may head is unique in that it is tasked with taking on 
covert activities and relies in many ways upon the oversight of 
this committee and, frankly, the trust of the American public 
to not go over the edge.
    I think there have been times--and we could debate those 
times--where clearly in the history of the Agency there have 
been examples where, whether it was through political pressure 
or otherwise, the Agency went over the edge and, unfortunately, 
that in the end did not make America safer.
    I'd also say that in many of these areas, whether it's the 
changes of technology--and I know there's a robust debate 
around encryption and privacy in the digital age--that edge was 
not defined yet both from a legal standpoint; and many times 
Congress has not done its job in terms of giving this, this 
policy guidance.
    So I want you to and hope that you will carry out your 
duties and keep America safe, but I think we get into a 
treacherous area when we're trying to push over an edge where 
those edges are not defined or Congress has not done its job.
    Thank you, Mr. Chairman.
    Senator Wyden. Mr. Chairman, thank you.
    Congressman, during the campaign the President-elect 
essentially laid out something that looks to me like 
outsourcing surveillance. He said about Russian hacking: ``I'd 
love to have that power.'' He encouraged the Russians to hack 
Secretary Clinton's emails and suggested they be provided to 
the press.
    We're now in a different period. He's the President-elect. 
And it's one thing to talk, as we did earlier, with respect to 
your idea for collecting metadata in the future, ``all 
metadata'' in your words. But I want to ask you about 
outsourced surveillance. If a foreign government, an 
organization, a company or an individual provided the Agency 
with the communications of Americans on whom there were no 
warrants, what would your response be?
    Representative Pompeo. Senator, that's a complex question 
that you've asked. I understand that there are policies in 
place, I believe at the Agency--it may even be at the 
Department of Justice--with respect to this very issue. If I 
can step back and tell you that, look, it is not lawful to 
outsource that which we cannot do, the Agency cannot do, under 
its laws. That is, we can't be too clever by half.
    Senator Wyden. But that's not the question. You can't 
request the information from a foreign government, we 
understand that. But the question is what happens if it's 
provided to you, especially since it's being encouraged?
    Representative Pompeo. Senator, my understanding is that 
the same set of rules that surrounded the information if it 
were collected by the U.S. Government apply to information that 
becomes available as a result of collection from non-U.S. 
sources as well.
    Senator Wyden. Mr. Chairman, your courtesy has been 
appreciated.
    I would only ask, in writing I'd like your response on 
that. Obviously, part of this involves minimization. There are 
other issues, 12333. I'd like that in writing.
    [The information referred to follows:]
    Senator Wyden. I'd also like in writing before we vote what 
limits you would have on your metadata proposal, particularly 
since you're advocating that it apply to personal lifestyle 
information.
    Thank you, Mr. Chairman.
    [The information referred to follows:]
    Chairman Burr. It was the hope of the Chair that we would 
allow the Congressman an hour in between this and the closed 
session. We are down to 30 minutes. I'm going to recognize 
Senator Harris for a very brief question if I may, and then I 
would ask, if there are any additional follow-ups, they be 
moved to the closed session.
    Senator Harris. Sure.
    Mr. Pompeo, on the issue of climate change, I understand 
you're not a scientist. What I'd like to know and what I want 
to hear from you is I want a CIA Director who is willing to 
accept the overwhelming weight of evidence when presented, even 
if it turns out to be politically inconvenient or requires you 
to change a previously held position.
    So what I want to hear from you is a guarantee that when 
presented with that evidence you are willing to then take a 
position that defers to the weight of that evidence even if it 
requires you to change a previously held position that may have 
been politically helpful to you or a position that you have 
taken during your tenure in elected office.
    Representative Pompeo. Senator, you have my commitment to 
that. I am an engineer by training. Facts and data matter, and 
you have my assurance that if I'm confirmed in my role as the 
CIA Director I will look at the evidence and give a straight-up 
answer to you and to all the policymakers to whom I have a 
responsibility.
    Senator Harris. Thank you.
    Chairman Burr. Congressman Pompeo, this brings to a close 
the open session of this hearing. Let me add something Senator 
Cornyn and Senator Warner spoke on and that is that's important 
that we realize that every President has the authority to 
provide direction or directives, and that has certainly been 
the case for every President I've been involved with in the 
intelligence community. And that directive expands or contracts 
in some cases the ability of the Agency, and all members of 
this committee should realize that.
    I want to apologize for not giving you the hour and I 
apologize for the power interruption. But I want to thank you 
for your service to Kansas. I want to thank you for your 
service to the Congress. I want to thank you for your service 
to the country as a board member of West Point as you have 
served, like I have, in the past.
    I want to thank you for how you've used your military 
education and, more importantly, how that's highlighted the 
greatness of the institution and the role it plays in 
developing future leaders of the country, of which you 
exemplify that. For that we are grateful.
    This hearing is adjourned.
    [Whereupon, at 12:32 p.m., the hearing was adjourned.]

                         Supplemental Material

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
